NO. ___________
IN THE SUPREME COURT OF THE UNITED STATES
JOSHUA GLEN BOX,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Joshua Box, pursuant to 18 U.S.C. § 3006A(b) and Rule 39 of the
United States Supreme Court, asks leave to file the attached Petition for Writ of
Certiorari without prepayment of costs and to proceed in forma pauperis.

The

Federal Public Defender’s Office was appointed to represent Mr. Box in the United
States District Court for the Western District of Arkansas and the United States
Court of Appeals for the Eighth Circuit pursuant to an appointment under the
Criminal Justice Act of 1964, as amended.
Dated this 27th day of August, 2020.
Respectfully submitted,
BRUCE D. EDDY
Federal Public Defender
Western District of Arkansas
_/s/ Anna M. Willilams_________
Anna M. Williams
Assistant Federal Public Defender

Counsel of Record

112 W. Center Street, Ste. 300
Fayetteville, Arkansas 72701
(479) 442-2306
anna_williams@fd.org

